                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFI'CE OF INSPECTOR GENERAL
                                                    OFFICE OF WESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I03090044
                                                                                11          Page 1 of 1



         An internal review of the government travel credit card program by the National Science
         Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
         of the government travel credit card by several agency employees.
                                                                                -*

         A review of Subject employee's lgovernment travel credit card statements revealed several local
         ATM withdrawals totaling $407.60. The statements also reflected a $1,395.00 charge to an "1-
         800" phone number.

         A review of the subject's official travel records indicated that all of the ATM withdrawals were
         made within .six days prior to official travel.

         Subject was interviewed and stated that the charge to the "1-800" number was for a registration
         fee for an official conference. Subject provided a copy of the SF Form 1164, Claim for
         Reimbursement, which reflected the $1,395.00 conference charge, and the signature of the
         approving official.

         Accordingly, this case is closed.




         ' Footnote Redacted

(SF 01G Form 2 (11/02)
